Appendix A (ii)

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
THIRD DISTRICT
NOVEMBER 06, 2020

ISABEL DEL PINO ALLEN,
Appellant(s)/Petitioner(s),
vs.
THE BOARD OF TRUSTEES OF MIAMI
DADE COLLEGE,
Appellee(s)/Respondent(s),

CASE NO.: 3D20-0386
L.T.NO.:

15-25946

Appellee’s Response in Opposition to Appellant’s pro se Motion for
Issuance of a Written Opinion, Rehearing, and Rehearing En Banc, filed on
October 21, 2020, is noted.
Appellant’s pro se Reply to Appellee’s Response filed on October 21,
2020, is also noted.
Upon consideration, Appellant’s pro se Motion for Issuance of a
Written Opinion and Rehearing is hereby denied.
LINDSEY, LOBREE andBOKOR, JJ., concur.
Appellant’s pro se Motion for Rehearing En Banc is denied.
EMAS, C.J., and FERNANDEZ, LOGUE, SCALES, LINDSEY,
MILLER, GORDO, LOBREE and BOKOR, JJ., concur.
HENDON, J., recused.

ATrac;£Xipy ‘ >
AITlsSf , ■

<■*

I

;
•i«S' ’

s >.)>■ i

cc:
la

Luke C. Savage

Isabel Del Pino Allen

Appendix A (iii)

ffurb district Court of Appeal
State of Florida
Opinion filed October 14,2020.
Not final until disposition of timely filed motion for rehearing.

No. 3D20-386
Lower Tribunal No. 15-25946
X

Isabel Del Pino-Allen,
Appellant,
vs.

The Board of Trustees of Miami Dade College,
Appellee.

An Appeal from the Circuit Court for Miami-Dade County, Veronica A. Diaz,
Judge.
Isabel Del Pino-Allen, in proper person.
Allen Norton & Blue, P.A., and Luke Savage, for appellee.
Before LINDSEY, LOBREE and BOKOR, JJ.
PER CURIAM.
Affirmed.

Filing # 103942300 E-Filed 02/26/2020 01:35:55 PM

CFN: 20200140322 BOOK 31838 PAGE 3611
DATE.03/05/2020 01:07:56 PM
HARVEY RUVIN, CLERK OF COURT, MIA-DAOE CTY

IN THE CIRCUIT COURT OF THE ELEVENTH JUDICIAL
CIRCUIT IN AND FOR MIAMI-DADE COUNTY, FLORIDA

Appendix A (iv)

CASE NO: 2015-025946-CA-01
SECTION: CA05
JUDGE: Veronica Diaz
Isabel Del Pino Allen
Plaintiffs)
vs.

Miami Dade College et al
Defendant(s)

ORDER GRANTING DEFENDANT'S MOTION FOR SUMMARY JUDGMENT
THIS CAUSE, having come before the Court upon Defendant’s Motion for Summary
Judgment. The Court has reviewed the motion and all relevant pleadings and filings, heard
argument from the parties at a special set hearing on February 25. 2020, and is fully advised in
the premises. Accordingly, having drawn every possible inference in favor of the Plaintiff, it is
ORDERED and ADJUDGED that Defendant’s Motion for Summary Judgment is GRANTED.
To establish a prima facie case of retaliation under the Whistle-blower’s Act, the
Plaintiff must show that: (1) she engaged in in statutorily protected activity; (2) she suffered an
adverse employment action; and (3) there is a causal relation between the two events. In the
instant case, it is undisputed that the Plaintiff was terminated. However, the Plaintiff did not
engage in any protected expression as required under the Act. Furthermore, Plaintiff cannot show
that there is a connection between any allegedly protected expression and her termination from
employment. Plaintiff’s only arguable protected disclosures - her February 9, 2015 letter
addressed to the College President and her follow-up letter of April 8, 2015 concerning the same
subject - do not qualify for protection under the Whistle-blower’s Act. The two letters authored
by Plaintiff do not contain information protected by section 112.3178(5), Florida Statutes.
Plaintiffs alleged “whistle-blower” complaints of February 9, 2015 and April 8, 2015 are also
not causally related to the Defendant’s decision to terminate her employment for misconduct
stemming from an internal investigation that commenced in September 2014. Accordingly,
summary judgment is entered for Defendant on Plaintiffs Whistle-blower’s Act retaliation
claim.
With respect to Plaintiffs discrimination claims, the Plaintiff is likewise unable to
establish a prima facie case of religion or disability discrimination under the Florida Civil
Rights Act. There is absolutely no evidence to support Plaintiffs claim of religious
discrimination, the basis of her claim being that the Defendant discriminated against her by
Case No: 2015-025946-CA-01

Page 1 of3

CFN: 20200140322 BOOK 31838 PAGE 3612

refusing to investigate her complaint of discrimination made after she had been notified of the
College’s intent to terminate her employment. Moreover, Plaintiffs complaint concerned a
statement that her colleague allegedly made to her a year and a half prior. Even if Plaintiff were
able to show discriminatory intent on the part of the Defendant, Plaintiff has failed to show that
the Defendant’s non-discriminatory and legitimate business reasons for termination were
pretextual. There is also absolutely no evidence to support Plaintiff s claim of disability
discrimination. Plaintiff is unable to establish that she was disabled or that the Defendant
terminated her in May 2015 because of request to use a wheelchair for a couple days in 2013,
which the Defendant granted. It is also undisputed that Plaintiff is not disabled. Even if Plaintiff
had established that she was disabled, Plaintiff has failed to show that the Defendant’s nondiscriminatory and legitimate business reasons for Plaintiffs termination were pretextual.
Drawing every possible inference in favor of the Plaintiff, the Plaintiff is unable to
demonstrate that the Defendant’s legitimate, non-discriminatory and non-retaliatory reasons for
terminating her employment were pretextual. The Plaintiff has not come forward with sufficient
evidence to allow a fact finder to disbelieve the Defendant’s proffered explanation for Plaintiffs
termination. Plaintiff has failed to come forward with any summary judgment evidence to rebut
the Defendant’s legitimate reasons and establish pretext. Accordingly, final summary judgment
is entered for the Defendant. Plaintiffs Third Amended Complaint is dismissed with prejudice.
DONE and ORDERED in Chambers at Miami-Dade County, Florida on this 26th day of
February. 2020.

20.1 5-0

o-o/y-o :i.

i-.zh

i

2015-025946-CA-01 02-26-2020 1:28 PM
Hon. Veronica Diaz
CIRCUIT COURT JUDGE
Electronically Signed

No Further Judicial Action Required oil THIS MOTION
CLERK TO RECLOSE CASE IF POST JUDGMENT

Copies Furnished To:
Armando Pedro Rubio, Email: seivice@fieldshowell.com
Armando Pedro Rubio , Email: Arubio@fieldshOwell.com
Isabel Regina Del Pino Allen , Email: idelpinoallen@gmail.com
Isabel Regina Del Pino Allen , Email: jevcaa@gmail.com
Jenna N Kochen , Email: asalgadp@anblaw.com

Case No: 2015-025946-CA-01

Page 2 of 3

Filing # 116573008 E-Filed 11/12/2020 03:16:07 PM
Appendix A (i)

Supreme Court of Jflortba
THURSDAY, NOVEMBER 12, 2020
CASE NO.: SC20-1654
Lower Tribunal No(s).:
3D20-386; 132015CA025946000001
ISABEL DEL PINO-ALLEN
Petitioner(s)

vs.

THE BOARD OF TRUSTEES OF
MIAMI DADE COLLEGE
Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wheeler v. State, 296 So. 3d 895 (Fla.
2020); Wells v. State, 132 So. 3d 1110 (Fla. 2014); Jackson v. State, 926 So. 2d
1262 (Fla. 2006); Gandy v. State, 846 So. 2d 1141 (Fla. 2003); Stallworth v.
Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster Co., 515 So. 2d 1279 (Fla.
1987); Dodi Publ’g Co. v. Editorial Am. S.A., 385 So. 2d 1369 (Fla. 1980); Jenkins
v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

John A. Tomas ino
Clerk, Supreme Court
td
Served:
LUKE SAVAGE
HON. MERCEDES M. PRIETO, CLERK
HON. VERONICA ADRIANA DIAZ, JUDGE
HON. HARVEY RUVIN, CLERK

A:

$■**»*'

ISABEL DEL PINO ALLEN

Additional material
from this fifing is
available in the
Clerk's Office.

